No. _____

In the Supreme Court of the United States
SECRETARY PENNSYLVANIA DEPARTMENT OF LABOR AND INDUSTRY,
Petitioner
v.
DELAWARE RIVER JOINT TOLL BRIDGE COMMISSION,
Respondent
CERTIFICATE OF COMPLIANCE
I hereby certify that the Petition for Writ of Certiorari in the above case
contains 7,307 words within the meaning of Sup. Ct. R. 33.1.

In making this

certificate, I have relied on the word count of the word-processing system used to
prepare the document, and I am a member of the bar of the Court. A copy of this
certificate has been served on counsel for respondent.

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
Dated: July 11, 2021

